HHS/OIG-AUDIT--Pension Costs Charged to Federal Programs for Members of the State Teachers Retirement System of Ohio (A-05-96-00071)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Pension Costs Charged to Federal Programs for Members of the
State Teachers Retirement System of Ohio," (A-05-96-00071)
December 31, 1996
Complete Text of Report is available in PDF format
(1M). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit to assist in negotiations concerning
pension costs charged to Federal programs for plan members of the State Teachers
Retirement System of Ohio (STRS). Our audit of pension costs generally covered
the period July 1, 1992 through July 31, 1993. The purpose of the audit was
to determine whether pension costs charged to grants and contracts were in compliance
with Federal regulations, generally accepted accounting principles (GAAP), and
actuarial standards.
Pension contribution rates must conform to cost principles contained in Office
of Management and Budget Circular A-87. The rates must be calculated in accordance
with generally accepted accounting and actuarial standards and be actuarially
determined. We determined that certain practices clearly do not conform with
Federal cost reimbursement principles or applicable actuarial cost methodology.
Our audit determined that excessive charges of pension costs to Federal programs
result from (i) establishing a contingency reserve to cover liabilities that
could result from deviations from actuarial estimates and projections and (ii)
using pension fund investment earnings (actuarial gains) to fund a health care
reserve instead of to reduce the retirement fund's unfunded liability.
Office of Management and Budget (OMB) Circular A-87 states that contributions
to contingency reserves are not allowable charges to Federal programs. The funding
of the health care reserve was not in accordance with prescribed actuarial cost
methodology, nor was the reserve actuarily determined. Both of these reserves
were funded with retirement fund investment earnings which should have been
used to reduce the plan's unfunded liability for future retirement benefits.
Since amortization of this future liability is a component used in calculating
the employer contribution rates, retirement costs charged to Federal programs
are overstated. Federal cost principles do not allow reimbursement of increases
in employer contributions to a pension plan that result from the maintenance
of special reserves which are actuarily unsupported and unjustified.
By using the investment earnings to fund and maintain the two reserves, instead
of to reduce the plan's unfunded liability for future retirement benefits, there
is a potential future financial impact of approximately $75 million on programs
administered by State of Ohio agencies and other entities within the State,
including universities and county and local school districts.
We are recommending that the Division of Cost Allocation (DCA) consider these
issues in rate negotiations with the State agencies and other entities whose
employees participate in STRS. Future pension costs allocable to the Federal
government should be reduced by a share of the retirement fund earnings (actuarial
gains) inappropriately transferred to the contingency and health care reserves.
Effective July 1, 1996, the reserve for future health care benefits must be
based on acceptable accounting methodology in accordance with the revised OMB
Circular A-87, using either actuarially determined costs or pay-as-you-go financing.
The health care reserve maintained during our audit period clearly did not meet
either of these criteria.